                             OFFICE OF THE INSPECTOR GENERAL
                             CORPORATION FOR NATIONAL AND
                                   COMMUNITY SERVICE




                                  PRE-AUDIT SURVEY OF THE
                                OHIO GOVERNOR'S COMMUNITY
                                      SERVICE COUNCIL

                                   OIG Audit Report Number 00- 15
                                        November 30, 1999




                                               Prepared by:

                                             KPMG LLP
                                         2001 M Street, N.W.
                                        Washington, D.C. 20036

                                Under CNS OIG MOU # 98-046-5003
                                   With the Department of Labor
                                   DOL Contract # 5-9-G-8-0022
                                        Task # B9G8V103




This report was issued to Corporation management on April 12, 2000. Under the laws and regulations
governing audit follow up, the Corporation must make final management decisions on the report's findings
and recommendations no later than October 9, 2000, and complete its corrective actions by April 12, 2001.
Consequently, the reported fmdings do not necessarily represent the final resolution of the issues presented.
                                 Office of Inspector General                             CORPORATION
                       Corporation for National and Community Service                    FOR NATIONAL

                                  Pre-Audit Survey of the
                                                                                          SERVICE
                         Ohio Governor's Community Service Council
                              OIG Audit Report Number 00-15

Introduction

The Corporation for National and Community Service, pursuant to the authority of the National and
Community Service Act, awards grants and cooperative agreements to state commissions, nonprofit
entities, tribes and territories to assist in the creation of full and part time national and community
service programs. Currently, in accordance with the requirements of the Act, the Corporation awards
approximately two-thirds of its AmeriCorps Staternational funds to state commissions. The state
commissions in turn fund, and are responsible for the oversight of, subgrantees who execute the
programs. Through these subgrantees, ArneriCorps Members perform service to meet educational,
human, environmental, and public safety needs throughout the nation.

Thus, state commissions play an important role in the oversight of AmeriCorps programs and
expenditures. The Corporation has indicated that it intends to give them greater responsibility.
However, the Corporation lacks a management information system that maintains comprehensive
information on its grants including those to state commissions and subgrantees. Moreover, although
the Corporation began state commission administrative reviews in 1999, the Corporation,
historically, has not carried out a comprehensive, risk-based program for grantee financial and
programmatic oversight and monitoring. It is also unlikely that AmeriCorps programs are subject
to compliance testing as part of state-wide audits under the Single Audit Act due to their size relative
to other state programs.

Therefore, CNS OIG has initiated a series ofpre-audit surveys intended to provide basic information
on the state commissions' operations and funding. The surveys are designed to provide a
preliminary assessment of the commissions' pre-award and grant selection procedures, fiscal
administration, monitoring of subgrantees (including AmeriCorps Member activities and service
hour reporting), and the use of training and technical assistance funds. For each survey, we will
issue a report to the state commission and to the Corporation communicating the results and making
recommendations for improvement, as appropriate.

 We engaged KPMG LLP toperform thepre-audit survey of the Ohio Governor's Community Service
 Council. KPMG 's report, whichfollows, concludes that the Councilpresently has adequate controls
 over pre-award and grant selection procedures, Jiscal administration, monitoring, and the use of
 training and technical assistance funds. The report includes recommendations for improvements
 by the Council, oversight by the Corporation for National Service, afull-scope audit of the Council
for program years 1995-96 through 1997-98, and a limited scope auditfor program year 1998-99.

We have reviewed the report and work papers supporting its conclusions, and we agree with the
findings and recommendations presented. Responses to the report by the Ohio Council and the
Corporation for National Service are included as appendices C and D, respectively.
                                                                                     Inspector General
                                                                                     1201 New York Avenue, NW
                                                                                     Washington, IIC 20525
                                           Pre-Audit Survey of the
                                  Ohio Governor's Community Service Council
                                              Table of Contents



RESULTS IN BRIEF ....................................................................................................................... 1

BACKGROUND ..............................................................................................................................   7


OVERVIEW OF THE OHIO COUNCIL ........................................................................................ 2

OBJECTIVES . SCOPE AND METHODOLOGY ..........................................................................3

FINDINGS AND RECOMMENDATIONS .................................................................................... 5

                     .
APPENDIX A COUNCIL FUNDING: 1996-97 THROUGH 1998-99 ..................................... A . 1

APPENDIX B. DETAILED ENGAGEMENT OBJECTIVES AND
   METHODOLOGY ................................................................................................................
                                                                                                                         B.1

APPENDIX C. OHIO GOVERNOR'S COMMUNITY SERVICE COUNCIL RESPONSE .... C . 1

APPENDIX D. CORPORATION RESPONSE ...........................................................................
                                                                                                        D .1
             2001 M Street. NW                                                          Telephone 202 533 3000
             Washington, DC 20036                                                       Fax 202 533 8500




November 30, 1999



Inspector General
Corporation for National and Community Service:

At your request, KPMG performed a preaudit survey of the Ohio Governor's Community
Service Council (the Council). The primary purpose of this survey was to provide a preliminary
assessment of:

   the adequacy of the pre-award selection process;
   the fiscal procedures at the Council;
   the effectiveness of monitoring of its AmeriCorps State subgrantees, including AmeriCorps
   Member activities and service hours; and
   the controls over the provision of technical assistance.

We were also to report on the recommended scope of additional audit procedures to be
performed at the Council.

Results in Brief

Based on the results of the limited procedures performed, we have made the following
preliminary assessments regarding the Council's systems for administering its AmeriCorps
grants:

    The Council administers an open, competitive process to select national service subgrantees.
    However, we identified areas for improvement related to (1) consideration of prior
    subgrantee evaluations during the renewal application process and (2) Learn and Serve
    subgrantee selection.

    The Council has an adequate process in place for fiscal administration of grants. However,
    we identified areas of improvement related to the lack of procedures to determine the
    accuracy of information processed through the state's financial systems.

    The Council has adequate controls in place to evaluate and monitor subgrantees. However,
    we identified areas of improvement related to (1) documentation of items tested during site
    visits prior to program year 1998-99 and (2) consistent and timely review of and feedback on
    Office of Management and Budget (OMB) Circular A- 133 reports.

    The Council has adequate controls in place to provide reasonable assurance that training and
    technical assistance is made available and provided to subgrantees.




                                                                                    1
1111           KPMG LLP KPMG LLP a U S I ~ m ~ t eI adb l t y partnershp
               a m ~ r n hof~ fKPMG I n t ~ r n a i o r a la Swiss assacaton
                                                                               IS
The section below entitled Findings and Recommendations describes the observations noted
above In further detail and addresses additional issues noted during the survey.

The results of our survey showed an improvement in the development and implementation of
policies and procedures during 1997-98, which impacted controls for 1998-99. Therefore, based
on our preliminary assessment, we recommend the performance of a full scope audit at the
Council for program years 1995-96 through 1997-98 and a limited scope audit for program year
1998-99.

Additionally, we recommend that the Corporation follow up with the Council to determine that
appropriate corrective actions are put into place to address the conditions reported herein, and
that the Corporation consider these conditions in its oversight and monitoring of the Council.

Background

The National and Community Service Trust Act of 1993, P.L. 103-82, which amended the
National and Community Service Act of 1990, established the Corporation for National and
Community Service.

The Corporation, pursuant to the authority of the Act, awards grants and cooperative agreements
to State Commissions, nonprofit entities and tribes and territories to assist in the creation of full
and part time national and community service programs. Through these grantees, AmeriCorps
Members perform service to meet the educational, human, environmental, and public safety
needs throughout the nation, especially addressing those needs related to poverty. In return for
this service, eligible Members may receive a living allowance and post service educational
benefits.

Currently, the Corporation awards approximately two-thirds of its AmeriCorps State/National
funds to State Commissions. State Commissions are required to include 15 to 25 voting
members. Each Commission has a responsibility to develop and communicate a vision and ethic
of service throughout its State.

The Commissions provide AmeriCorps funding to approved applicants for service programs
within their states and are responsible for monitoring these subgrantees' compliance with grant
requirements. The Commissions are also responsible for providing training and technical
assistance to AmeriCorps State and National Direct programs and to the broader network of
service programs in the state. The Commissions are prohibited from directly operating national
service programs.

The Corporation's regulations describe standards for financial management systems that must be
maintained by State Commissions. The standards require, in part, that the State Commissions
maintain internal controls that provide for accurate, current, and complete disclosure of the
financial and programmatic results of financially assisted activities, and provide effective control
and accountability for all grant and subgrant cash, real and personal property, and other assets.

Overview of the Ohio Council

The Ohio Governor's Community Service Council, located in Columbus, Ohio, has received
AmeriCorps grant funds from the Corporation for National and Community Service since
program year 1994-95. The Council is an office of the State of Ohio, established through state
legislation in 1994 to administer grants under the National and Community Service Trust Act of
1993.

The Council consists of 13 Governor appointees and eight state legislative representatives. The
Ohio Department of Aging serves as the Councd's fiscal agent. The Council has a staff of 10
full-time and 4 part-timelcontract personnel working under an Executive Director in three teams:
program, fiscal, and community.

As part of the Ohio State government, the Council is annually subjected to statewide OMB
Circular A-133 audits. However, the Corporation grants have never been tested as major
programs.

The Council provided us with the following information for the last three program years:

                                                                      Number of Sub-
                                                                     grantees Subject to
                             Total Corporation      Number of           A-133 Audit
        Program Year             Funding;           Submantees         Requirements*




*   Determination is based solely on dollar value of federal awards passed through the Council
    for the program year. Remaining subgrantees could be subject to an OMB Circular A-133
    audit if they received additional federal grant funds from other sources. Because the Council
    does not consistently obtain and review such audit reports as reported on page 10, we were
    unable to verify that applicable subgrantees complied with this audit requirement.

Appendix A contains more detailed information on funding received from the Corporation
during program years 1996-97 through 1998-99.

Objectives, Scope, and Methodology

We were engaged by the Office of the Inspector General, Corporation for National and
Community Service, to provide a preliminary assessment of the systems and procedures in place
at the Council for administering its AmeriCorps grants and for monitoring the fiscal activity of
subgrantees. The primary purpose of this pre-audit survey was to provide a preliminary
assessment oC

    the adequacy of the pre-award selection process;
    the fiscal procedures at the Council;
    the effectiveness of monitoring of its AmeriCorps State subgrantees, including AmeriCorps
    Member activities and service hours; and
    the controls over the provision of technical assistance.

We were also to report on the recommended scope of additional audit procedures to be
performed at the Council.
Our survey included the followmg procedures:

   rewewing applicable laws. regulations, grant provisions, the Corporation's A Reference
   Munual for Commission Executive Directors and Members, and other information to gain an
   understanding of legal, statutory and programmatic requirements;

   reviewing OMB Circular A-133 reports and current program year grant agreements with the
   Council;

   obtaining information from Council management to complete flowcharts documenting the
   hierarchy of AmeriCorps grant funding for program years 1996-97, 1997-98 and 1998-99;
   and

   performing the procedures detailed in Appendix B over the Council's internal controls,
   selection of subgrantees, administration of grant funds, evaluation and monitoring of grants,
   and the technical assistance process.

As part of the procedures performed, we documented and tested internal controls in place at the
Council using inquiries, observations, and examination of a limited sample of source documents.
Finally, we summarized the results of our work to develop the findings and recommendations
presented in this report. We discussed all findings with Council management during an exit
conference on November 30, 1999.

Our procedures were performed in accordance with Government Auditing Standards issued by
the Comptroller General of the United States. We were not engaged to, and did not, perform an
audit of any financial statements, and the procedures described above were not sufficient to
express an opinion on the controls at the Council or its compliance with applicable laws,
regulations, contracts and grants. Accordingly, we do not express an opinion on any such
financial statements or on the Council's controls or compliance. Had we performed additional
procedures, other matters might have come to our attention that would have been reported to
you.

We provided a draft of this report to the Council and the Corporation. The Council's and the
Corporation's responses to our findings and recommendations are included as Appendix C and
Appendix D, respectively. In order to address certain of the concerns expressed in the Council's
response, we have clarified the wording of the respective Findings and Recommendations, which
begin on the following page.
Findings and Recommendations

The Council is in the process of documenting its policles and procedures relating to the selection
of subgrantees, administration of grant funds, evaluation and monitoring of subgrantees, and
providing training and technical assistance to subgrantees. As the Council completes this
project, we recommend that the Council include the recommendations discussed below that we
developed based on speclfic findings within each area.

Selecting Subgrantees

According to A Reference Manual for Commission Executive Directors and Members, section
3.2, "Commissions are expected to develop a fair and impartial process for reviewing and
selecting applicants for potential funding." The Council has developed and implemented various
procedures to meet this responsibility. For example, Council personnel require the AmerlCorps
selection officials to sign conflict of interest statements before the commencement of the
selection process. In addition, selection officials use a standard form, which includes an area for
the assessment of financial systems and organizational capacity, to evaluate each applicant.
However, we identified the following areas for improvement within the selection process.

        Consideration of Prior Evaluations by Selection Officials in the Renewal Application
        Process

The selection officials consist of a peer review team of three to four independent community
professionals (for recompete projects), a staff review team of three Council staff members, and
the Council Board members. These selection officials have the responsibility to evaluate
applicants and make approvallrejection decisions. Council personnel provide information to
these selection officials for each applicant.

If the Council has funded an applicant in a previous year, Council personnel communicate key
aspects of program evaluations to the selection officials through the staff review process using a
written summary of the applicant's strengths and weaknesses. This summary, however, does not
specifically address the program's performance in the prior program year. Therefore, the content
of this communication may vary significantly from applicant to applicant because Council
subgrantee selection procedures do not identify what information should be communicated to
selection officials for each previously funded applicant.

As a result, Council personnel may provide certain information to the selection officials about
one previously funded applicant, but may inadvertently omit that information in their
communications about other previously funded applicants. If similar information is not
consistently communicated about each previously funded applicant, then the fairness of the
selection process may be impaired and Council personnel may unintentionally bias the selection
process. In addition, if information is inadvertently omitted, the Council runs the risk of funding
a program that had operational issues in the previous program year.

        Lack of Consistent Documentation over the Subgrantee Selection Process prior to
        November 199 7

Currently, the Council has implemented specific controls and documentation procedures over the
subgrantee selection process. However, prior to November 1997, we observed that for two of
eight applications selected. the documentation supporting the review process was inconsistent
and ~ncomplete.In November 1997, the Council developed policies that required specific
documentation of the reviews performed in the selection process, and we identified no
documentation exceptions for the six applications tested that were processed after that date
(program year 1998-99 applications). As a result, no recommendation is required at this time
related to documentation supporting the subgrantee selection process.

        Inconsistent Application of Policies and Procedures over Selecting Subgrantees for the
        Learn and Serve Grants

The Council has developed procedures related to documentation requirements of the Learn and
Serve subgrantee selection process. However, we noted that these procedures are not in writing
and that the Council has not consistently followed them. For the two of the six Learn and Serve
applications selected for test work, we found a lack of supporting documentation for the
selection review process. In addition, we noted the inconsistent completion of conflict of interest
statements.

        Other Observations

We noted that the Council does not consider an applicant's prior OMB Circular A-133 audit
reports, if applicable. during the subgrantee selection process to assist in the determination of the
adequacy of the applicant's operations and control environment. In addition, the Council lacks
written procedures that address grievance suits related to the selection process.

        Recommendations

We recommend the Council focus on measures for improving the effectiveness of its subgrantee
selection process as follows:

    Develop an objective, standardized method of communicating the results of the Council's
    evaluation of previously funded applicants. This method should ensure that the same type of
    information is communicated for each applicant. The Council should also consider
    providing this information to the reviewers in writing to ensure consistency of content and
    availability of the information to the selection officials while they are making their funding
    determinations.

    Formalize and enforce established policies and procedures for the Learn and Serve
    subgrantee selection process. These procedures should (1) specify documentation
    requirements over the selection process and (2) require completion of conflict of interest
    statements for all peer review members.

    Develop and implement procedures to (1) evaluate each applicant's prior OMB Circular A-
    133 audit reports, if applicable, during the selection process, and (2) address grievance suits
    related to the selection process.

Administering Grant Funds

As part of the grant administration process, "Commissions must evaluate whether subgrantees
comply w ~ t hlegal, reporting, financial management and grant requirements and ensure follow
through on issues of non-compliance" ( A Reference Manual for Commlsslon Erecutwe Dlwctor.~
mzd ~Metnbers,sectlon 4 3) The Council has developed and Implemented procedures to
admmster grant funds received from the Corporatlon. Procedures are In place to withhold
fundmg payments ~fsubgrantees do not submit Flnanclal Status Reports (FSRs) t~mely,manage
cash draw downs and disbursements to subgrantees; and ascertain whether subgrantees have met
thelr matching requlrements. The Councd's organizational structure appears adequate and
personnel appear to have adequate skills and experience to manage Corporatlon grant funds

We ident~fiedthe following areas for improvement related to the evaluation of subgrantee
compliance with reporting and grant requirements.

       Lack of Procedures to Determine the Accuracy of Information Processed through the
       State's Financial Systems

The Ohio Department of Aging (ODA) serves as the Council's fiscal agent. ODA performs the
following tasks for the Council: processing grant draw downs using the statewide accounting
system, disbursing funds to subgrantees and vendors, and providing the Council with reports on
financial activity. The Council uses the data output from these systems to report its financial
information in the required FSRs and to determine the amount of funds that have been spent.
Furthermore, prior to program year 1999-2000, the Council did not receive or review the annual
independent auditors' report on the processing of transactions by the statewide accounting
system; reviewing this report would provide assurance over or highlight weaknesses in the
statewide accounting system's internal controls.

In addition, because of system limitations, the Council does not compare budget to actual
expenses by budget line item for its Administrative and PDAT grants. Comparing actual
expense by budget line item to the approved budget is a strong control to ensure that the Council
is expending its funds on approved activities and that the fiscal agent and state accounting
system are properly processing its fiscal activities. Currently, the Council does compare total
actual grant expense to the approved grant amount.

        Lack of Evidence of FSR Review, Including Matching Recalculation, prior to December
        1996

Council procedures require that subgrantee FSRs be reviewed upon receipt and that matching
requirements be recalculated at that time. However, prior to the 1996-97 program year, the
Council did not document the performance of this review. As a result, the one FSR we tested
from the 1995-96 program year did not contain evidence that this review had been performed.

In December 1996, the Council developed procedures that require the completion of an FSR
worksheet, which documents the review performed over each FSR and the related matching
recalculation. We noted no exceptions to this procedure for the nine subgrantees tested that
submitted FSRs after this date (program years 1996-97 through 1998-99). As a result, no
recommendation is required at this time related to documentation of the FSR review and
matching recalculation.
       Recommendations

We recommend the Council focus on measures for improving the effectiveness of its grant
administration process as follows:

   Develop and implement formal procedures to review the annual independent auditors' report
   on the processing of transactions by the statewide accounting system to ensure that the third
   party financial system maintains proper controls over data integr~tyand financial reporting.

    Develop and implement procedures to compare on a periodic basis (e.g., monthly) budgeted
    expenses to what the fiscal agent reports as actual expenses for each budget line item for the
    PDAT and Administration grants. This review will help identify any unusual or
    inappropriate transactions or any overspending of funds.

Evaluating and Monitoring Subgrantees

As noted above, the Council is responsible for evaluating whether subgrantees comply with
legal, reporting, financial management and grant requirements and ensuring follow through on
issues of noncompliance. The Council monitors its programs through review of required
quarterly progress reports, FSRs and Financial Detail Reports (FDRs) (which compare the
subgrantee's actual to budgeted expenditures) and the performance of three types of monitoring
site visits throughout the year (i.e., compliance, financial and programmatic). In addition,
beginning in February 1999 (program year 1998-99), the Council implemented unannounced
monitoring visits for subgrantees with areas of concern identified by the Council.

We identified the following areas for improvement related to the evaluation and monitoring of
subgrantees.

        Documentation of Items Tested During Site Visits

Prior to the 1998-99 program year, the Council did not document the items selected when
performing detailed reviews during site visits. Thus, we were unable to verify the examination
of Member timesheets and expenses during site visits for the subgrantees selected. Beginning in
April 1999 (program year 1998-99), the Council implemented a checklist that requires the
identification of items tested during compliance site visits. However, a sim~larchecklist has not
been developed for the financial site visits.

        Review of OMB Circular A-133 Reports or Other Audit Reports from Subgrantees

OMB Circular A-133 Compliance Supplement, April 1999, Part 6 - Internal Control suggests
that review of and follow-up on subgrantees' audit reports is a key component of a program to
monitor subgrantees' compliance with federal grant requirements. In program year 1997-98, the
Council implemented procedures to receive and review OMB Circular A-133 reports. However,
these procedures do not require the review of OMB Circular A- 133 reports until the end of the
grant term in conjunction with grant closeout procedures. In addition, although the Council
maintains a listing of OMB Circular A-1 33 reports that are required but not received, we noted
that two of five outstanding OMB Circular A-133 reports were not included on the control
listing.
Because the Council does not cons~stentlyreview or receive these reports, identilied control
weaknesses or instances of noncompliance related to the AmeriCorps program are not known
until the end of a grant term, if at all. As a result, control weaknesses or instances of material
noncompliance related to the AmeriCorps program of which the Council is not aware may exlst
and may not be corrected timely.

        Written Policies and Procedures Related to Follow-up on Deficiencies Noted at
        Subgrantees

The Council does not have written policies and procedures related to the resolution of
deficiencies identified by the Council through site visits, review of OMB Circular A- 133 reports,
andlor review of quarterly progress reports. Without formal policies and procedures for follow-
up on audit issues, the Council can not assure itself that subgrantees have corrected identified
deficiencies and instances of non-compliance in a timely manner.

        Receipt of Progress Reports

The Council has procedures to determine that all progress reports are received timely. These
procedures include date stamping the progress reports and maintaining a master list of each
program with the date the progress report was received. However, for the quarters ending June
and September 1999, the master list was not completed. Therefore, the Council was not readily
able to verify that all progress reports were received and reviewed.

In October 1999 (program year 1999-2000), the Council began using the Web Based Reporting
System, which electronically records the date subgrantees submit their progress reports to the
Council. As a result, no recommendation is required at this time related to receipt of
subgrantees' progress reports.

        Timeliness of Feedback on Progress Reports

Timely feedback on progress reports allows the subgrantees to improve their operations.
Council procedures indicate that the review of progress reports and submission of results to the
subgrantees is to be completed within three weeks of receipt. Currently, the Council is not
meeting this guideline. Instead, the Council provides feedback on progress reports to the
subgrantees within three months of completion of the review.

        Policies and Procedures over the Evaluating and Monitoring of Learn and Sewe
        Su bgran tees

The Council requires Learn and Serve subgrantees to submit quarterly progress reports detailing
programmatic and financial compliance with grant agreements. However, Council procedures
do not include (1) the performance of site visits for Learn and Serve subgrantees or (2) the
submission of written feedback on the quarterly progress reports submitted by Learn and Serve
subgrantees.
We recommend the Council focus on measures for improvmg the effectiveness of its evaluation
and monitoring of subgrantees as follows:

   Develop and implement procedures to document the review and testing of subgrantees'
   Member timesheets and expense documentation during financial site visits. These
   procedures should requlre identification of selection cr~teriaand items selected for testing.

   Obtain and review the most recent OMB Circular A- 133 reports as a part of the compliance
   site visits for all subgrantees. The Council should review these reports upon receipt to
   determine if corrective action relevant to the AmeriCorps grant is needed. If an OMB
   Circular A-133 audit is in process when the site visits occurs, the Council should note this m
   an "outstanding reports" listing, which should be reviewed periodically during the year to
   ensure all OMB Circular A-133 reports are obtained and rewewed timely.

   Develop and implement written policies and procedures to ensure that adequate corrective
   actions are taken In a timely manner when deficiencies are noted either by the Council
   during site v~sits,or by OMB Circular A-133 report reviews.

    Enforce current procedures related to the timely review and submission of feedback on
    subgrantee progress reports.

    Develop and implement formal policies and procedures for evaluating and monitoring Learn
    and Serve subgrantees. These procedures should include performing site visits and
    providing the subgrantees with feedback on their quarterly progress reports to help ensure
    proper programmatic and financial compliance.

Providing Technical Assistance

Annually, the Council receives grant funds to provide technical assistance to its subgrantees.
Procedures are in place at the Council to (1) identify training needs of subgrantees through site
visits, training evaluations, and need and resource assessment surveys; (2) notify subgrantees of
training programs; and (3) provide needed training to subgrantees. We identified no significant
areas for improvement within this process as a result of the limited procedures performed.



This report is intended solely for the information and use of the Office of the Inspector General,
the management of the Corporation for National and Community Service, the management of the
Ohio Governor's Community Service Council, and the Unlted States Congress and is not
intended to be and should not be used by anyone other than these specified parties.
                                    Council Funding                             Appendix A

The table below and the flowcharts on the following pages depict the Council's funding over the
past three program years. We were unable to agree the funding amounts to the Council's FSRs
for (a) 1998-99 because the final FSR for the program year had not been completed at the time of
field work and (b) previous program years because those FSRs had been prepared on a
cumulative, not program year, basis.


         Funding Source and T v ~ e

         CNS Formula Grant Funds

         CNS Competitive Grant Funds

         CNS Promise Fellows Funds

         CNS Ohio Reads Early Funds

         CNS Educational Only Awards

         CNS Learn and Serve Funds

         CNS Disability Funds

         CNS PDAT Funds

         CNS Administrative Funds

         CNS Carryover Funds

         State Matching Funds

           Total Funding
                                  Council Funding                                         Appendix A




    -
    -                        --




                        Corporation for National Service
                                Funding to the
                  Ohio Governor's Community Service Council
    1                                     1996-1997



           Formula          Competitive        Learn and                      All Other
            Funds             Funds                            Funds *        Funds *
                                                Funds
         $ 3,489,403        $ 386,896          $104,893        $1 11,965      $411,917




                Total Corporation Funds Available to the Council
                                   $4,505,074




                            Funds Awarded to Subgrantees
                                    $3,986,879




       Formula                 Competitive                 Learn and Serve
      Subgrantees              Subgrantees                   Subgrantees
      $ 3,489,403                $386,896                     $104,893
    # of subgrantees         # of subgrantees              # of subgrantees
           14                         1                           16
        # of sites      ~         # of sites                   # of sites

                        ~             8


*       The PDAT and Adrmnistrative ( w i t h "all other funds") grant information is based on
the program year 1/1/97 to 12/31/97. All other grants and information is based on the 8196-
12/97 program year.

**  Other subgrantees receive funding under Educational Only Awards and Administrative
grants.
                                                   A.2
                           Council Funding                                              Appendix A




                     Corporation for National Service
                             Funding to the
               Ohio Governor's Community Service Council
                               1997-1998
 I                                                                                  I
           I              I               I
      Formula        Competitive      Learn and            PDAT         All Other
       Funds           Funds            Serve             Funds *       Funds *
                                       Funds
     $ 2,581,425      $841,360        $155,227            $189,545      $443,056
                                                    -

          v               v                                  'I            v

           Total Corporation Funds Available to the Council
                              $4,2lO,6 13

                                          I
                      Funds Awarded to Subgrantees
                              $3,724,468
                                                      I
           I                  I

r i  Formula
   Subgrantees
   $ 2,581,425
 # of subgrantees
        16
     # of sites
                        Competitive
                        Subgrantees

                      # of subgrantees
                                              Learn and Serve
                                                Subgrantees
                                                  $155,227
                                              # of subgrantees
                                                     15
                                                  # of sites
                                                                           Other
                                                                     Subgrantees **
                                                                        $146,456
                                                                     # of subgrantees

                                                     15


* The PDAT and Ahnistrative (within "all other funds") grant information is based on
the program year 1/1/98 to 12131198. All other grants and information is based on the 8197-
12/98 program year.

**  Other subgrantees receive funding under Educational Only Awards and Ahnistrative
grants.
                                         A.3
                           Council Funding                                         Appendix A




                     Corporation for National Service
                             Funding to the
               Ohio Governor's Community Service Council
                               1998-1999
 I
                                                        I              I
                      Competitive     Learn and      PDAT          All Other
                        Funds           Serve       Funds *         Funds *
                                        Funds
                      $ 689,864        $80,3 16    $15 1,927       $53 1,376
                                    -


 I
           v              v              v              v             v
            Total Corporation Funds Available to the Council
                               $3,591,160




                      Funds Awarded to Subgrantees
                              $3,125,134




I
       Formula
     Subgrantees
     $ 2,137,677
     of subgrantees
          17
       # of sites
          132
                        Competitive
                        Subgrantees

                      # of subgrantees



                                          nLearn and Serve
                                             Subgrantees
                                               $80,316
                                           # of subgrantees
                                                                Subgrantees **
                                                                    $2 17,277
                                                                # of subgrantees




* The PDAT and Administrative (within "all other funds") grant information is based on
the program year 1/1/99 to 12131/99. All other grants and information is based on the 8198-
12/99 program year.

** Other subgrantees receive funding under Educational Only Awards, Administrative,
Disability, and Promise Fellows grants.
                          Detailed Engagement Objectives
                                 and Methodology                                  Appendix B

Internal Controls


Our objective was to make a preliminary assessment of the adequacy of the Council's financial
systems and documentation maintained by the Council to provide reasonable assurance that
transactions are properly recorded and accounted for to: (1) permit the preparation of reliable
financial statements and Federal reports; (2) maintain accountability over assets; and (3)
demonstrate compliance with laws, regulations, and other compliance requirements.

In order to achieve the above objective, we identified the compliance requirements with a direct
and material effect on the Council's AmeriCorps grant program, as follows: activities allowed or
unallowed and allowable costs; cash management; eligibility; matching; period of availability of
Corporation funds; procurement, suspension and debarment; subrecipient monitoring; and
reportmg by the Council to the Corporation. We then interviewed key Council personnel to
assess the Council's controls surrounding these requirements.

Selecting Subgrantees

Our objectives were to make a preliminary assessment:

    of the adequacy of the systems and controls utilized by the Council to select national service
    subgrantees to be included in an application to the Corporation;

    as to whether the Council evaluated the adequacy of potential subgrantee financial systems
    and controls in place to administer a Federal grant program prior to making the award to the
    subgrantees; and

    as to whether Council involvement in the application process involved any actual or apparent
    conflict of interest.

In order to achieve the above objectives, we interviewed key Council management and
documented procedures performed by the Council during the pre-award financial and
programmatic risk assessment of potential subgrantees. We also reviewed documentation to
determine if conflict of interest forms were signed by selection officials annually and maintained
by the Council.

Administering the Grant Funds

Our objectives were to:

    make a preliminary assessment of the adequacy of the systems and controls utilized by the
    Council to oversee and monitor the performance and progress of funded subgrantees;

    make a preliminary assessment as to whether the Council's organizational structure and
    staffing level and skill mix are conducive to effective grant administration and whether the
    Council has a properly constituted membership;
                          Detailed Engagement Objectives
                                 and Methodology                                 Appendix B

    make a preliminary assessment as to whether the Council prov~dedadequate guidance to
    subgrantees related to maintenance of financial systems, records, supporting documentation,
    and reportmg of subgrantee activity;

    make a preliminary assessment of the adequacy of financial systems and documentation
    maintained by the Council to support oversight of subgrantees and required reporting to the
    Corporation (including Financial Status Reports, enrollment forms and exit forms); and

    determine whether the Council has procedures in place to verify the accuracy and timeliness
    of reports submitted by the subgrantees.

In order to achieve the above objectives, we reviewed Financial Status Reports submitted by
subgrantees, as well as Financial Status Reports submitted by the Council to the Corporation. to
preliminarily assess the accuracy of submitted Financial Status Reports. We also determined
whether the Council has implemented the Web Based Reporting System (WBRS).

Evaluating and Monitoring Subgrantees

Our objectives were to:

    make a preliminary assessment of the adequacy of the systems and controls utilized by the
    Council to implement a comprehensive, non-duplicative evaluation and monitoring process
    for their subgrantees;

    determine whether the Council has an established subgrantee site visit program in place and
    make a preliminary assessment of the effectiveness of its design in achieving monitoring
    objectives;

    make a preliminary assessment of the adequacy of the Council's procedures used to assess
    subgrantee compliance with Corporation regulations (e.g., those governing eligibility of
    Members, service hour reporting, prohibited activities, payment of living allowances to
    Members and allowability of costs incurred and claimed under the grants by subgrantees
    (including reported match));

    make a preliminary assessment of the adequacy of the Council's procedures for obtaining,
    reviewing and following up on findings included in the subgrantee OMB Circular A-1 33
    audit reports, where applicable;

    determine whether program goals are established and results are reported and compared to
    these goals; and

    make a preliminary assessment of the adequacy of the procedures in place to evaluate
    whether subgrantees are achieving their intended purpose.

In order to achieve the above objectives, we documented the procedures performed by the
Council to evaluate and monitor individual subgrantees. In addition, we judgmentally selected
subgrantees and obtained the Council's documentation for site visits. We reviewed the
documentation to preliminarily assess the adequacy of the procedures performed by the Council
                          Detailed Engagement Objectives
                                  and Methodology                                 Appendix B

to assess financial and programmatic compliance and related controls at the sites. We also
determmed whether the Council received and reviewed OMB Circular A-133 audit reports from
subgrantees.

Providing Technical Assistance

Our objectives were to:

    make a preliminary assessment of the adequacy of the systems and controls utilized by the
    Council to provide technical assistance to subgrantees and other entities in planning
    programs, applying for funds, and implementing and operating programs;

    determine whether a process is in place to identify tra~ningand technical assistance needs;
    and

    determine whether training and technical assistance is provided to identified subgrantees.

In order to achieve the above objectives, we documented the procedures performed by the
Council to identify and satisfy training needs for the subgrantees and Council employees. We
also obtained a summary of all training costs incurred during the current year to ensure they
properly related to training activities that were made available to all subgrantees.
                                                    Appendix C

March 16, 2000


Ms. Luise S. Jordan
Inspector General
Office of the Inspector General
Corporation for National Service
1201 New York Avenue, NW
Washington, DC 20525

Dear Ms. Jordan:

Please accept this letter as the Governor's Community Service Council's
formal response to the pre-audit survey (OIG Audit Report Number 00-15)
prepared by KPMG LLP. I would like to begin by expressing appreciation
to the Columbus, Ohio firm of KPMG which conducted the pre-audit
survey. The audit team provided helpful recommendations to further
strengthen the sound operating systems the Council has put into place over
the last several years. The team's professional, thoughtful and respectful
approach to its task and to the Council staff helped to make the pre-audit
survey a positive, productive and ultimately beneficial experience for us.

We agree with the general conclusions that the Council as it has evolved
and matured has developed and implemented policies and procedures that
ensure adequate controls for and compliance of both Council and sub-
grantees financial and programmatic matters. The pre-audit survey also
corroborated the only deficiency noted in the Council's Administrative
Standards Review in late 1999::.T: strong systems, policies and practices
developed and consistently utilized by the Council are not adequately
documented in writing. Needless to say, the completion of policy and
procedure manuals governing all aspects of Council operation is the
primary administrative goal for Year 2000. The Council maintains
communication with Susannah Washburn, AmeriCorps Program Officer
concerning progress in this area.

However, there are several specific findings with which we do not agree:

1.     Inconsistent Ap~lication of Policies and Procedures over
       select in^ Subwantees for the Learn and Serve Grants
       It was noted that procedures related to selecting subgrantees were
       not in writing. This is incorrect. Copies of policies and procedures
       for selecting Learn and Serve subgrantees were provided to the
       audit team during the review and again as the team sought further
       clarification of information related to Learn and Serve. I am
       enclosing the information again as part of this response.
                                                      Appendix C


     In addition, the final section in this section implies that both test
     files were deficient. This is incorrect. One of the two test files
     was complete and the other lacked some of the necessary
     documentation.

2.   Documentation of Items Tested D u r i n ~ Site Visits
                          .
     <Recommendation Dape 11)
     The recommendation suggests that the written checklist utilized to
     document the records that are examined during a monitoring visit
     is not enough. It was verbally recommended that copies of tested
     records be maintained with the checklist as necessary
     documentation. Implementation of this recommendation requires
     additional time at the site to copy records and additional storage
     space that is not available. We do not believe that this is a realistic
     or necessary part of the monitoring process. However, the part of
     this recommendation that we are implementing is attaching copies
     of tested member time sheets to the monitoring checklist.

3.   Timeliness of Feedback on Pro~ressR e ~ o r t s( p a ~ e11)
     While the information presented is accurate, I want to reiterate that
     the three-week turnaround time is a self-imposed goal rather than a
     compliance issue. We do agree that we should be meeting our goal
     or changing it if it isn't realistic. The recent addition of staff in the
     Program area will enable the Council to meet its goal of timely
     feedback to subgrantees.

4.   Lack of Procedures to Determine the Accuracv of Information
     Processed through the State's Financial Svstems ( P a ~ 8)  e
     The comments on Information processed through the State's
     Financial System overstate the role of the fiscal agent (ODA) and
     overlook existing Council procedures which verify the accuracy of
     information. In reality, ODA is simply a conduit between the
     Council and the state accounting system (CAS) - entering data as
     directed by the Council and channeling back to the Council
     system-generated reports based on the data entered. ODA also
     downloads to the Council the raw data in electronic format. Given
     this system, there are two potential sources of error: (1) inaccurate
     data entry by ODA, and (2) erroneous coding by Council staff.
     Procedures in place to prevent and/or detect errors from both of
     these sources include:
         Draw downs of funds, which are reflected in CAS as deposits,
         are reconciled to the source via quarterly PMS-272 report.
         Funds drawn correspond exactly to vouchers processed,
         allowing quarterly reconciliation of each federal grant as part
         of the PMS-272 process; any inaccuracy would result in an
         unexplained excess or deficit.
                                                    Appendix C


          With each request for payment, subgrantees indicate the total
          funds received to date according to their records; any
          discrepancy between CAS and the subgrantee records is
          resolved prior to approval of the payment request.
          The electronic data provided from CAS is used to prepare
          monthly financial reports; this process involves a review by the
          Internal Operations Director of the monthly transaction detail
          for miscoded or mis-keyed transactions.

       We do concur that a review of the annual independent auditors'
       report on the statewide accounting system is essential, given our
       reliance on CAS for financial information. While we are not in a
       position to rectify any systemic weakness uncovered by the
       independent auditors, knowledge.of such weakness will ensure that
       we use CAS data in an appropriate manner.

       The observations detailed on Pages 8 and 9 regarding budget-to-
       actual reporting and the limitations of the state accounting system
       are correct. However, it should be noted for the record that we are
       among the state agencies implementing CAS/Workflow, an
       enhancement which allows user-defined coding to be added to
       CAS transactions. This will give us the ability to code transactions
       and report data on the basis of CNS budget lines. Implementation
       will be complete by the start of fiscal 2001 (July 1, 2000).

5.     Implied Non-Com~liance
       TWOof the "areas for improvement" cited in the report call for no
       action on the part of the Council:
           Lack of Consistent Documentation over the Subgrantee
           Selection Process
           Lack of Evidence of FSR Review, Including Matching
           Recalculation
       We feel the words "Lack of' should be removed resulting in a
       neutral description. This will eliminate the implication of current
       non-compliance resulting from the present wording.

In conclusion, I would also like to go on record as saying that the
Governor's Community Service Council, like the other State Service
Commissions around the country, is less than six years old. We didn't
have the "luxury" of planning before doing, of establishing systems,
policies and procedures before becoming operational. At the same time
we were trying to establish ourselves at the state level, the Corporation for
National Service was trying to establish itself at the federal level. At all
levels we have struggled to develop sound operating systems, adequate
documentation, consistent and timely communication, and a full
understanding of the complex rules and regulations of CNS. In Ohio,
                                                   Appendix C


thanks to the unflagging commitment and hard work of a dedicated (and
weary!) staff and Council, we are making excellent progress in creating a
stable, accountable, effective and sustainable organization. The scrutiny
of CNS and the Office of the Inspector General are always welcome
especially if, as a result, the Governor's Community Service Council
becomes an even stronger organization.

Thank you.


Sincerely,



K& B@
Executive Director

cc: Susannah Washburn
    Andrew Geisfeld
MEMORANDUM
                                                               AmeriCorps National Service   C0RP0 RATI 0N

                                                                                             FOR NATIONAL
TO:            Luise S. Jordan

THRU:

FROM:          Deborah R. Jo
               Bruce H. Cline

DATE:          March 10, 2000

SUBJECT:       Response to the Draft Audit Report 00- 15, Pre-Audit Survey of the Ohio
               Governor 's Community Service Council

We have reviewed the draft report on your pre-audit survey of the Ohio Governor's
Community Service Council. Given the nature of the report, this response serves as our
proposed management decision. We note that your preliminary assessment recommends
a full scope audit at the Council for program years 1995-96 through 1997-98 and a
limited scope audit for program year 1998-99. The draft audit report includes a
recommendation to the Corporation. We are providing the following response to that
recommendation. The Inspector General recommended:

        "Additionally, we (the Inspector General) recommend that the Corporation follow
        up with the Council to determine that appropriate corrective actions are put into
        place to address the conditions reported herein, and that the Corporation consider
        these conditions in its oversight and monitoring of the Council."

Some of the conditions cited in the "results in brief' section of the report include
concerns related to the lack of procedures to determine the accuracy of information
processed through the state's financial systems and consistent and timely review of an
feedback of OMB Circular A-1 33 reports.

Given our limited program administration resources, we developed a plan to assess State
Commission administration functions. Over a three-year period, we will be reviewing
each of the state commissions. As part of our follow-up with Ohio, we will determine
whether the Commission has put appropriate corrective actions in place for conditions
noted in the pre-audit survey that your office has issued.

In addition to this scheduled review, we will also request that the Council provide semi-
annual reports on their actions to correct conditions cited in the OIG pre-audit survey.      ,, ,,,,,,     ,,,,,
                                                                                              Washington. DC 20525
                                                                                                                      ,
                                                                                              Telephone 202-6065000



                                                                                              GettingThings Done.
                                                                                              Amencorps. National Service
                                                                                              Learn and Serve Amenca
                                                                                              Nahonal Senlor Serv~ceCorps
